No. 19-508

 

IN THE

Supreme Court of the United States

AMG CaPITAL MANAGEMENT, LLC; BLACK CREEK
CAPITAL CORPORATION; BROADMOOR CAPITAL
PARTNERS, LLC; LEVEL 5 Motorsports, LLC;
Scott A. TUCKER; PARK 269 LLC; AND KIM C. TUCKER,
PETITIONERS

v.

FEDERAL TRADE COMMISSION

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE FEDERAL TRADE COMMISSION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
15,325 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d), and in accordance to the application for leave to not exceed 15,500 word
limits granted on November 19, 2020.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 30, 2020.

i

Colin Casey Ho;
Wilson-Epes Printing Co., Inc.
